No.

 

IN THE

Supreme Court of the United States

City OF SAN ANTONIO, TEXAS, ON BEHALF OF ITSELF AND ALL
OTHER SIMILARLY SITUATED TEXAS
MUNICIPALITIES, PETITIONER,

v.

HOTELS.COM, L.P., ET AL.,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,076 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2020.

 

Colin Casey Hogan
Wilson-Epes Printifg Co., Inc.
